                                 September 27, 1999

                                 ROBERT J. SHEEHAN
                                 MANAGER, ATLANTA DISTRICT

                                 SUBJECT: Review of Periodicals in the Atlanta District
                                          (Report Number AC-MA-99-002)

                                 This management advisory report presents the results of
                                 our review of the United States Postal Service’s (USPS)
                                 Periodicals regarding issues we observed at the Atlanta
                                 Processing and Distribution Center (Project Number
                                 99PR002DS000). We conducted a review in response to a
                                 request from the Chairman of the Subcommittee on the
                                 Postal Service. The Chairman expressed concerns about
                                 timely delivery of Periodicals. This report resulted from the
                                 review of the processing of Periodicals class mail at three
                                 postal facilities.1 At two of the three facilities, we found no
                                 issues requiring management attention. Our observations
                                 for those were reported in a separate letter advisory
                                 (Review of Periodicals, Report Number AC-LA-99-001,
                                 September 27, 1999) to Postal management.

Results in Brief                 During our review of the Atlanta Processing and Distribution
                                 Center, we found deficiencies in processing operations that
                                 potentially affected timely delivery of Periodicals.
                                 Specifically, we found that the date and time often were not
                                 placed on the Periodicals mail containers, mixed classes of
                                 mail were sent to delivery units, and Periodicals mail was
                                 not worked on a first-in, first-out basis. We suggested the
                                 Plant Manager, Atlanta Processing and Distribution Center,
                                 document verbal instruction requiring employees to place
                                 the date and time on incoming Periodicals mail containers
                                 and ensure employees are fully aware of date and time
                                 requirements. We also suggested the plant manager train


1
 We visited the Atlanta Processing and Distribution Center, the Dominick V. Daniels Processing and Distribution
Center in Kearny, New Jersey and the Royal Oak Michigan Processing and Distribution Center




                                             Restricted Information
Review of Periodicals in the Atlanta District                                          AC-MA-99-002



                                 employees regarding national mail policy that prohibits
                                 commingling of Periodicals with other classes of mail and
                                 requires mail to be worked on a true first-in, first-out basis,
                                 and conduct periodic reviews to ensure compliance with
                                 mail policy. Management agreed with our suggestions.
                                 Management’s comment is included in the appendix of this
                                 report.

Background                       Effective July 1, 1996, second-class mail was renamed
                                 Periodicals. Periodicals service is designed for
                                 newspapers, magazines, and other periodical publications
                                 whose primary purpose is the transmission of information to
                                 an established list of subscribers or requesters. Periodicals
                                 must be issued regularly, at a stated frequency (at least four
                                 times a year), from a known office of publication, and
                                 formed of printed sheets. Mailers of periodicals may
                                 request a specific delivery date for their publications. The
                                 USPS makes all reasonable operating efforts to meet such
                                 requests, but does not guarantee delivery for this class of
                                 mail on a specific date.

                                 Following reclassification, many postal customers
                                 experienced a decline in what had formerly been known as
                                 second-class mail, now Periodicals. The National
                                 Newspaper Association conducted a survey and found that
                                 publishers of periodicals, especially publishers of daily or
                                 weekly “community” newspapers, actually saw a decrease
                                 in delivery service for their publications. Newspapers were
                                 reporting an increase in customer complaints and
                                 subscription cancellations as a result of the decline in
                                 delivery performance. Newspapers were not the only
                                 periodical to be affected, however; other types of periodical
                                 publications were receiving less than desirable levels of
                                 service.

                                 On September 18, 1998, a national policy statement for the
                                 processing of Periodicals was issued. This statement set
                                 policy for handling Periodicals and clearly stated
                                 management’s commitment to improve service for this class
                                 of mail. Included in this policy were instructions for
                                 processing, distribution, transportation, and delivery of
                                 Periodicals as well as policy that prohibits the commingling
                                 of mail and requires random quality control reviews.




                                                      2
                                           Restricted Information
Review of Periodicals in the Atlanta District                                          AC-MA-99-002



Objective, Scope, and            Our objective was to review the processing and delivery of
Methodology                      Periodicals at the Atlanta Processing and Distribution
                                 Center. At this facility, we conducted interviews and
                                 observed operations to assess the processing of
                                 Periodicals. Additionally, we visited delivery units serviced
                                 by the plant to assess the condition of the mail as it came
                                 from the plant and to determine how Periodicals were
                                 treated at the delivery units.

                                 We conducted our review from November 1998 through
                                 August 1999 in accordance with the President’s Council on
                                 Integrity and Efficiency, Quality Standards for Inspections.
                                 In completing our review, we conducted interviews,
                                 performed field visits and observations, and reviewed USPS
                                 policies and other pertinent documents. We discussed our
                                 conclusions and observations with appropriate management
                                 officials and included their comments, where appropriate.

Observations                     We found deficiencies in processing operations that
                                 potentially affected timely delivery of Periodicals at the
                                 Atlanta facility. Specifically, we found that the date and time
                                 often were not placed on the mail, mixed classes of mail
                                 were sent to delivery units, and mail was not worked on a
                                 first-in, first-out basis.

Date and Time Not                Periodicals containers at the Atlanta facility were not
Placed on Mail                   properly labeled. Workers at the Atlanta facility were not
                                 following verbal instruction to place the date and time on
                                 container labels or placards. Additionally, we observed
                                 several containers of Periodicals that were not labeled.
                                 According to USPS management, there is a 24-hour
                                 turnover period for processing Periodicals; therefore, proper
                                 labeling is critical. Failure to identify mail as Periodicals or
                                 to record the date and time they are received could result in
                                 Periodicals being delayed past the 24-hour turnover period.

Mixed Classes of Mail            Periodicals sent to the delivery units were mixed with other
                                 classes of mail. This occurred when employees combined
                                 Periodicals with other classes of mail in mail containers and
                                 failed to identify the mixed mail classes on the container
                                 label. Some of the containers had Periodicals mixed with




                                                      3
                                           Restricted Information
Review of Periodicals in the Atlanta District                                        AC-MA-99-002



                                 Standard Mail (A). Additionally, we observed many
                                 instances where Standard Mail (A) was placed on top of
                                 Periodicals. As a result, Periodicals could be delayed since
                                 Periodicals and Standard Mail (A) have different delivery
                                 standards.

Mail Not Worked on               Periodicals were not worked on a first-in, first-out basis.
First-In, First-Out Basis        Plant management stated that their first-in, first-out system
                                 was based on the day rather than the hour the mail was
                                 received. As such, the Periodicals in the staging area were
                                 set up so that the newest mail was located at the front of the
                                 staging area and worked first. Mail that came into the plant
                                 first stayed at the back of the staging area and was not
                                 worked until all the mail in front of it, including any new
                                 Periodicals that came in on subsequent loads, had been
                                 worked. However, this could result in Periodicals being
                                 delayed on those days where more mail volume is received
                                 than can be processed. We noted that best practices at
                                 other plants we visited included using the day and time
                                 received to establish which mailings needed to be worked
                                 first.

Suggestions                      We suggest the Plant Manager, Atlanta Processing and
                                 Distribution Center:

                                 1. Document current verbal instruction requiring employees
                                    to place the date and time on incoming Periodicals
                                    containers.

                                 2. Ensure employees are fully aware of the date and time
                                    requirements by disseminating the documented
                                    instruction and conducting training.

                                 3. Ensure affected employees are trained regarding
                                    national mail policy prohibiting the commingling of
                                    Periodicals with other classes of mail and requiring mail
                                    to be worked on a first-in, first-out basis.

                                 4. Conduct periodic reviews to ensure compliance with the
                                    mail policy.

Management’s                     The Plant Manager, Atlanta Processing and Distribution
Comments                         Center agreed with our suggestions. Management
                                 indicated that they have or plan to take the following
                                 actions:


                                                      4
                                           Restricted Information
Review of Periodicals in the Atlanta District                                         AC-MA-99-002



                                 •   validate previous verbal instruction by issuing written
                                     instruction requiring opening unit employees to place
                                     both the date and time of arrival on incoming Periodical
                                     mail containers;
                                 •   make employees aware of this guideline by
                                     disseminating written policy, having supervisors conduct
                                     training, and addressing the policy at the next plant-wide
                                     meeting to be held in September;
                                 •   train affected employees on national mail policies that
                                     prohibit the commingling of Periodicals with Standard A
                                     mail and require mail to be worked on a first-in, first-out
                                     basis. This training should be completed by
                                     September 30, 1999; and
                                 •   schedule periodic reviews to ensure compliance with
                                     these mail policies.

Evaluation of                    Management’s comments are responsive to the issues
Management                       raised in the report. The implemented and planned actions
Comments                         by management satisfy the intent of our suggestions.

                                 We appreciated the cooperation and courtesies provided by
                                 your staff during our review. If you have any questions,
                                 please contact me at (703) 248-2300.



                                 Richard F. Chambers
                                 Assistant Inspector General
                                   for Performance

                                 Attachment

                                 cc: Robert T. Davis
                                     Alan B. Kiel
                                     John R. Gunnels




                                                      5
                                           Restricted Information
Review of Periodicals in the Atlanta District                       AC-MA-99-002




                                                      6                Appendix
                                           Restricted Information
Review of Periodicals in the Atlanta District                       AC-MA-99-002




 Major Contributors to
 This Report




                                                      7
                                           Restricted Information
Review of Periodicals in the Atlanta District                                   AC-MA-99-002




                                          Report Synopsis
                                           GENERAL INFORMATION

REPORT NUMBER:                                                 REPORT DATE:


REPORT TITLE:




EVALUATOR-IN-CHARGE:                                                DIRECTOR:

                                           FINDINGS/OBSERVATION

NUMBER OF FINDING/OBSERVATIONS:
NONCURRENCES: Mgmt did not agree.
(Indicate finding/observation headings and numbers)
         1.
         2.
         3.
         4.

                                  RECOMMENDATIONS/SUGGESTIONS

NUMBER OF RECOMMENDATION/SUGGESTIONS:
NONCURRENCES: Mgmt did not agree.
(Indicate recommendation/suggestion headings and numbers)
         1.
         2.
         3.
         4.

NUMBER OF CORRECTIVE ACTIONS TAKEN DURING AUDIT:
TOTAL FUNDS PUT TO BETTER USE:
TOTAL QUESTIONED COST:
UNSUPPORTED COST INCLUDED IN QUESTIONED COST:


                                                 Restricted Information
Review of Periodicals in the Atlanta District                             AC-MA-99-002




Report Summary:
Provided a one to two paragraph summary of the your report. Be sure to identify
purpose, any requestors, results, and whether management concurred with the
observations and suggestions. (Report Title, Report Number and date issued)




                                           Restricted Information
